Department   of Health and Human Services

        OFFICE OF

   INSPECTOR GENERAL





“KNOW YOUR N(JMBER” BROCHURE


   PERSPECTIVES   OF DIALYSIS     PATIENTS




                     JUNE GIBBS BROWN
                     Inspector General

                         JANUARY 1997
                         OEI-06-95-O0320
                          OFFICE OF INSPECTOR                 GENERAL

The mission of the OffIce of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, evaluations, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.




                OFFICE OF EVALUATION                    AND INSPECTIONS

The OIG’S OffIce of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department, the
Congress, and the public. The inspection reports provide findings and recommendations on the
efficiency, vulnerability, and effectiveness of departmental programs.

OEI’S Dallas Regional Oftlce prepared this report under the direction of Chester B. Slaughter,
Regional Inspector General.

Project staff included:


DALLAS REGION                                                            HEADQUARTERS
Michelle Adams, Ph. D.                                                   Mary Beth Clarke
Ruth Ann Dorrill                                                         Brian Ritchie
Karen Erickson, Intern                                                   Barbara Tedesco
Sarah Taylor
Judy Tyler
Nancy Watts


For additional copies of this report, please contact the Dallas Regional OffIce at (800) 848-8960.
Department          of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




“KNOW YOUR NUMBER”                               BROCHURE


   PERSPECTIVES              OF DIALYSIS         PATIENTS




         $   ‘o +	              JUNE     GIBBS    BROWN
                                Inspector        General

             ‘+4b
                    dza #	             J~ARY       1997
                                       OEI-06-95-O0320
              EXECUTIVE                           SUMMARY

PURPOSE

This study describes the perspectives of end stage renal disease (ESRD) patients regarding
the effectiveness of the Health Care Financing Administration’s (HCFA) “Know Your
Number” brochure in educating them about a way to monitor the adequacy of their
dialysis.

BACKGROUND         AND METHODOLOGY

By Medicare’s definition, ESRD is “that stage of renal impairment that appears
irreversible and permanent, and requires a regular course of dialysis or kidney
transplantation to maintain life. ” Concern has grown over the adequacy of hemodialysis
with the recent release of the ESRD Core Indicators Workgroup’s report, conducted as
part of HCFA’s and the 18 contracting ESRD Network Organization’s quality assurance
and continuous improvement efforts. Their report found that only 43 percent of patients
were receiving adequate hemodialysis.

The 13SRD brochure “Know Your Number” was developed out of this concern. Its
purpose is to educate the approximately 156,000 in-center hemodialysis patients so they
may better determine the adequacy of their dialysis and become more proactive in the
treatment process.

We surveyed two separate random samples of 800 hemodialysis patients in late October
1995 and mid-February 1996, to test both early and later dissemination of the brochure.

FINDINGS

Overall, we found the brochure was somewhat successful in increasing patient awareness
of information about adequate dialysis, how it is measured, how patients know if they
have achieved it, and what they can do to improve their dialysis. Additionally, it appears
the brochure has helped to enhance the dialogue between facilities and patients about
adequate dialysis and the use of URR or KT/V numbers to monitor adequacy of dialysis
treatment.

Nevertheless, there were problems with dissemination of the brochure. The majority of
patients did Wt receive it; and most of those who did were ~t familiar with their
facility’s use of URR or KT/V tests and had no idea what the appropriate target number
for either of these tests should be.




                                             i
Following are more specific findings.

DISSEMINATION.        Only one-third of ESRD hemodialysis pm”ents repotied receiving
the brochure.

GENERAL EFFECT.      Generally, patient awareness of URR or KT/V was low but
improved somewhat over h-me.

Less than half of surveyed patients reported the URR or KT/V test(s) as being used by
their facility to measure adequacy, with about one-quarter of all patients saying they did
not know which test(s) were used; nevertheless, patient awareness of URR and/or KT/V
has increased somewhat over time.

However, only one-quarter of all patients, whether they received the brochure or not,
could correctly identify either the target URR or KT/V number(s). Many patients who
said the brochure was easy to understand and/or that it was very helpful still could not
identify the correct URR or KT/V target number. Even among college educated patients,
only 43 percent successfully identified the correct target URR or KT/V number.

SPECIFIC EFFECT.      Overall, pdients receiving the brochure reported it easy to
understand, ve~ usefil, and had a better understanding of adequate dialysis.

Eighty-four percent of brochure recipients reported the brochure’s content was very or
somewhat easy to understand, and over two-thirds reported the brochure was very helpful.

Patients receiving the brochure were almost 1.5 times more likely to identify URR or
KT/V as the test(s) used to measure adequacy in their dialysis facility, 2.3 times more
likely to also know the correct target URR or KT/V number, and 1.3 times more likely to
track this information over time, compared to those ~ receiving the brochure. Patients
receiving the brochure were also more likely to have been told by the dialysis staff what
they could do to improve the adequacy of their dialysis.

PATIENTISTAFF     RELATIONSHIP.       ZJze pa&”ent/staff relationship emerged as a most
important element in p&”ent understanding of adequate dtiysis and the success@ use
of the brochure.

Among patients receiving the brochure, less than half reported receiving an explanation of
the brochure’s content or having it read to them by diaJysis staff. However, dialogue
between patients and facility staff regarding the adequacy of patients’ dialysis and/or their
test results appears to have increased somewhat over time.




                                              ii
RECOMMENDATIONS

Overall, HCFA’s strategy to educate patients and enlist them in monitoring the adequacy
of their dialysis shows promise. The educational brochure has the potential to serve as an
effective part of a broader strategy of improving patients’ understanding and pursuit of
adequate dialysis. However, the brochure’s dissemination and its use by facilities need to
be refined and improved before this can fully occur.

Based on our findings, we recommend that HCFA:

Assure future paiient brochures are received by &l Medicare dialysis patients.

Severe dissemination problems occurred with this patient brochure, either because
facilities did ~t distribute the brochure to ~ patients, and/or patients received no staff
explanation when receiving the brochure, and therefore did ~ recall receiving the
brochure.

Build on the patient/staff relationship in order to improve patient understanding    of URR
and KT/V and the importance of achieving adequate dialysis.

It was also clear that the patient/staff relationship was critical in increasing patient
understanding of the brochure’s content and of dialysis adequacy. Facility staff should be
encouraged to engage in two-way communication with patients about the adequacy of their
dialysis, specifically, informing them about URR and KT/V and the appropriate target
number. Additional Iy, facility staff should actively participate in the dissemination of
future educational brochures by providing explanations about the brochure’s content, along
with stressing the importance of the material.

Additional Office of Ins~ector General Work

A companion report by the Inspector General’s office (OEI-06-95-O0321 ) provides
information about how individual facilities disseminated the “Know Your Number”
brochure to their patients. The report describes what adequacy information is being given
to patients by facilities, such as patients’ URR or KT/V numbers. Additionally, it
highlights educational strategies used by facilities to better inform patients, and provides
recommendations on the creation and distribution of future educational brochures, as well
as facility activities to educate and involve patients in monitoring the adequacy of their
dialysis.




                                              .. .
                                              111
AGENCY     COMMENTS


The Health Care Financing Administration (HCFA) concurred with all the report’s

recommendations.   We appreciate their responsiveness to our proposals. However, we

have a new concern that has arisen since we issued our draft report.


We originally recommended that HCFA encourage facilities to calculate dialysis adequacy

monthly and share these numbers with patients on a regular basis. HCFA informed us

that they had no requirement for facilities to measure the adequacy of dialysis at

prescribed intervals but that their revised ESRD Conditions for Coverage will require

facilities to calculate the adequacy of dialysis quarterly. This is in marked constrast to the

upcoming National Kidney Foundation’s Dial ysis Outcome Quality Initiative guidelines

which recommend a standard practice guideline of a monthly URR or KT/V calculation,

not quarterly calculations.    We are concerned that facilities will interpret HCFA’s

Conditions for Coverage as the acceptable standard and conduct adequacy testing only

quarterly.


In our view, this could pose a severe health risk for ESRD patients whose dialysis could

go three months before needed corrections could be made to their treatment. We are

convinced that facilities should be required to calculate adequacy numbers monthly and we

urge HCFA to reconsider or amend the Conditions for Coverage according y.





                                              iv
                      TABLE                 OF        CONTENTS




EXECUTIVE        SUMMARY          . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .i


INTRODUCTION            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1


mINGs         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5


 Overview     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5


 Dissemination      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .5


 General Effect     . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .6


 Specific Effect    . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13


 Patient/StaffRelationship        . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18


RECOMMENDATIONS                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22


AGENCY      COMMENTS            . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23


ENDNOTES         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


APPENDICES


A: Response Rates and Non-Respondent             Analysis     . . . . . . . . . . . . . . . . . . . . . A-1


B: Coni3dence IntervalsandTests           for Significance      . . . . . . . . . . . . . . . . . . . . .B-l


C:   Text ofAgencyComments.             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..C-l
                           INTRODUCTION

PURPOSE

This report assesses the effectiveness of HCFA’s “Know Your Number” brochure in
reaching end stage renal disease (ESRD) patients by determining 1) if brochures were
successfully disseminated, 2) if patients understood the content, and 3) the extent of
interaction between patients and providers as a result of the brochure’s distribution.

BACKGROUND

By Medicare’s definition, ESRD is “that stage of renal impairment that appears
irreversible and permanent, and requires a regular course of dialysis or kidney
transplantation to maintain life.”’ Although some Americans with chronic kidney failure
receive kidney transplants, the majority receive either hemodialysis or peritoneal dialysis
treatment. 2’3Over 186,000 ESRD patients currently receive some form of dialysis
therapy in the United States. Although dialysis is expensive and is not a cure, the
treatments can greatly prolong an ESRD patient’s life.

As a result of the Social Security Amendments of 1972 (P.L. 92-603), ESRD patients may
qualify for Medicare under the renal disease provision which pays for 80 percent of the
cost of the treatment no matter how old they are. To qualify for Medicare a person must:
1) have worked long enough to be insured under the Social Security program, or be the
spouse/child of someone who has; or 2) already be receiving Social Security benefits. If a
person isn’t eligible for Medicare, they may qualify for Medicaid if their income is below
a certain level.

As part of its oversight to assure the appropriateness of services for ESRD patients,

Congress passed the ESRD Amendments of 1978 (P.L. 95-292) which authorized the

establishment of ESRD Network Organizations.        Currently, the Health Care Finance

Administration contracts with 18 ESRD Network Organizations throughout the United

States. In striving for quality assurance and continuous improvement, the ESRD

Networks, together with HCFA and the renal community, worked to implement the ESRD

Health Care Quality Improvement Program. This program allows the ESRD Networks

and HCFA to track improvements in health care provided to renal Medicare beneficiaries

through the development of quality indicators.


ESRD Core Indicators   Proiect


In 1994 the ESRD Health Care Quality Improvement Progmm conducted the

National/Network   ESRD Core Indicators Project to assist providers of ESRD services in

assessing and improving the care provided to ESRD patients. The first phase of this

project targeted adult in-center hemodialysis patients receiving care in the last quarter of

1993. The project’s focus was on establishing a consistent clinical database of key

components of care. Such clinical measures included the determination of the adequacy of



                                              1
dialysis using the pre- and post-dialysis blood urea nitrogen (BUN) levels to calculate the
urea reduction ratios (uRR) .4 Baseline estimates were then used to identify opportunities
for improvement in ESRD care across the United States.

The project’s data was compared to standard medical levels of adequate hemodialysis
developed by the Renal Physicians Association and a National Institute of Health (NIH)
Consensus Development Conference Panel (URR >0.65 or KT/V > 1.2).5’7 Only 43
percent of the study’s patients met these new standards, with significant differences
existing by gender, race, age, and region. The percent of patients in particular network
areas who received adequate hemodialysis ranged from 29 to 57 percent, accounting for
differences by race and gender.

The ESRD Core Indicators Workgroup produced a report in late 1994, along with an
analysis of the project’s results, and is currently conducting an evaluation of the impact of
the Health Care Quality Improvement Program on patient care and outcomes. Networks
will also prepare summary reports of their intervention and follow-up activities on an
annual basis.

ESRD Brochure

The ESRD brochure “Know Your Number” was developed out of concern for the large
percent of hemodialysis patients not receiving adequate treatment. With the development
of a consensus medical standard for adequate hemodialysis, patients now have a
benchmark against which to compare their own test results.

The brochure’s purpose is to educate the approximately 156,000 in-center hemodialysis
patients so they may better determine the adequacy of their treatment and become more
proactive in the treatment process. The brochure focuses on heightening patients’
awareness of the following: 1) there is a recommended level of dialysis associated with a
number; 2) why achieving this level is important; and 3) how patients would know if the
recommended level of dialysis was achieved. The brochure also seeks to inform patients
on what they can do to track and improve their dialysis test results.

A total of 350,000 brochures were initially printed in English, with an additional 50,000
brochures printed in Spanish for a later distribution.    The brochures were sent directly to
approximately 2,500 dialysis facilities for dissemination to ESRD patients. Distribution of
the brochure to patients at the facility-level is intended to improve communication between
providers and patients, in addition to increasing patients’ understanding of their treatment
and progress.

SCOPE

Since the goal of the ESRD “Know Your Number” brochure is to increase patient
awareness about the adequacy of their dialysis, this study examined whether patients
received the brochure and understood its content and facilities’ experience in using the
brochure. In addition, we determined how brochures were disseminated and the extent of


                                              2

interaction between patients and providers as a result of the brochure’s distribution. We
did not aim to measure any broad-based changes in patient behavior resulting from the
brochure due to the difficulty of making such causal inferences.

METHODOLOGY

Sample selection

This study was comprised of three separate samples:

The fwst sample surveyed in-center hemodialysis patients about their familiarity with
adequate dialysis, their relationship with facility provider(s), and whether or not they
received the brochure. We randomly selected a sample of patients and administered a
brief mail questionnaire the last week of October 1995, shortly after the brochure was
disseminated to dialysis facilities.

Although we had originally hoped our surveys for the first sample would arrive prior to
the brochure’s distribution, thus serving as a baseline, this was not possible. Shipping of
the brochures to facilities occurred early to mid-October by an independent contractor
hired by HCFA. The results of our first sample indicated the brochure had already
reached our sampled patients; therefore, we used this sample’s findings to represent time
period one.

�	     A total of 800 in-center hemodialysis patients out of an eligible universe of
       113,475 patients were selected from HCFA’S Medical Information System using
       simple random sampling. Eligible adult patients received hemodialysis between
       1/94 and 6/95 from a staff facility. Anticipating less than a 50 percent response
       rate from this population, we oversampled to obtain a representative sample of 385
       respondents.   The actual response rate for this sample was 48 percent (see
       Appendix A).

The second sample randomly surveyed another group of in-center hemodialysis patients
almost four months after the brochure’s dissemination to dialysis facilities. Speciilcally,
this survey was mailed during the second week of February 1996 and assessed in greater
detail whether patients received the brochure and also measured the brochure’s
effectiveness.    Patients were asked questions about the readability of the brochure, its’
usefulness, and whether they could identify URR or KT/V as a test of adequacy or knew
the target levels for either of these tests. Additionally, patients were asked to recall what
type of explanation they received regarding the brochure, and their interaction with the
dialysis facility staff regarding the adequacy of information about their own dialysis.

�	     Using simple random sampling, another 800 in-center hemodialysis patients were
       selected from a universe of 119,311 eligible patients from the database. Eligible
       adult patients received hemodialysis between the 4/95 and 9/95 from a staff
       facility. Of the 800 patients randomly selected, seven patients were excluded from
       the sample because they were also surveyed in our first sample, leaving 793


                                               3

       eligible patients. Allowing for non-respondents, weexpected to obtaina
       representative sample of 385 respondents.   The actual response rate for this sample
       was 50 percent (see Appendix A).

A third sanmle mailed during the first week of April 1996, surveyed staff in randomly
selected in-center facilities to further assess how well the brochure achieved its desired
goals. We analyzed specific actions taken in using the brochure, such as: 1) how was the
brochure distributed; 2) did they explain the brochure to patients; 3) did they put the
information in a newsletter; and 4) how did/does the brochure fit into their broader
educational outreach? The findings from this survey are included in a separate OIG report
(OEI-06-95-O0321).

�	     A total of 150 out of 2,847 dialysis facilities in operation prior to 10/1/95 were
       selected from HCFA’s database using simple random sampling. Of the 150
       ditdysis facilities selected, we surveyed 132 facilities with hemodialysis patients in
       April 1996. Our response rate for this sample was 86 percent, with 113 facilities
       responding to our survey.

Non-Response    Analym”s

A complete analysis of non-response bias from our f~st and second sample, along with
our findings from a separate survey of 60 non-respondents from our second sample are
included in Appendix A.

Tests of Significance

Tests of signitlcance for key survey questions were performed using either t-tests or Chi-
square tests. For the majority of findings in this report we only highlight statistically
significant differences between our fwst and second sample. Additionally, Chi-square
tests were used to capture signitlcant differences among those patients receiving the
brochure vs. those not receiving it, along with those patients understanding URR and/or
KT/V tests and the target number associated with them vs. those patients not
understanding these tests of adequacy. Confidence intervals are also included for key
survey findings in Appendix B.

This inspection was conducted in accordance with the Quulity Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.




                                              4

                                  FINDINGS


OVERVIEW

Overall, we found the brochure was somewhat successful in increasing patient awareness
of information about adequate dialysis, how it is measured, how patients know if they
have achieved it, and what they can do to improve their dialysis. Additionally, it appears
the brochure has helped to enhance the dialogue between facilities and patients about
adequate dialysis and the use of URR or KT/V numbers to monitor adequacy of dialysis
treatment.

Nevertheless, there were severe problems with dissemination of the brochure, with the
majority of patients w receiving it. Also, the majority of patients who did receive the
brochure were ~t familiar with URR or KT/V as tests used by their dialysis facility to
measure adequacy and had no idea what the appropriate target number for either of these
tests should be.

DISSEMINATION

Only one-third of ESRD hemodialysis      p~”ents reported receiving the brochure,

The majority of patients in both samples stated they had ~t received or did not remember
receiving the brochure (see table 1). In our first random sample conducted shortly afier
the brochure was mailed to facilities, only 33 percent of patients reported receiving the
brochure, while 52 percent had not received it and another 15 percent did not remember.
We found similar results in another random sample conducted several months after the
brochure’s dissemination.   Thirty-two percent of our second sample reported receiving the
brochure, 52 percent did not, and 16 percent did not remember. Seventy-six percent of
patients in this sample reported receiving the brochure from their dialysis center, 19
percent thought they had received it in the mail, two percent received it some other way,
and 3 percent did not remember.



                        Table 1: PATIENTS RECEIVING BROCHURE
                          Comparison of first and second sample results

 Received   brochure                                    First Sample      Second Sample

 Yes                                                        33%               32%
                                                            (120)             (126)

 No                                                         52%               52%
                                                            (193)             (202)

 Don’t Remember                                             15%                16%
                                                            (54)               (64)




                                               5

No significant differences existed, among patients receiving the brochure compared to
those w receiving it, based on patients’ primary language or by their education level.

In a separate facility survey (OEI-06-95-O0321 ), 76 percent of facilities reported receiving
the brochure. However, only half of facilities said they distributed the brochure to every
patient.


GENERAL       EFFECT

In order to determine if the brochure led to an increased focus on adequacy of dialysis
among facility staff and patients, we asked all patients surveyed a number of questions
about adequate dialysis and the tests used to measure it. The majority of the results
reported in this section reflect the responses from all respondents to our survey, not just
those patients receiving the brochure.

Generally, pah”ent awareness of URR or KT/V was low but improved modestly over time.

Patient familiarity   with URR or KT/V tests.

 Fewer patients idenh~ed the important U. or KT/V tests as being used by their facility
 to measure adequaq, thun other tests, such as potassium and phosphorous. About one­
 quurter of all patients said they did not know which test(s) were used by their dialysis
facilig.

When queried about which tests were used by their dialysis facility to measure the

adequacy of their dialysis, patients from both samples marked a wide-assortment of tests

other than the URR or KT/V number (see table 2). The potassium test was most

commonly identified, with 60 and 61 percent of patients selecting this test from a list of

possibilities. The phosphorous test and BUN test were also frequently selected by

patients. Fifty-five and 58 percent of patients in our first and second sample identified the

phosphorous test, while 53 and 55 percent of patients selected the BUN test.


Forty-five percent of our frost sample and only 35 percent of our second sample

respondents identifkd the URR number as a test used by their dialysis facility to measure

adequacy, while 37 and 36 percent of patients selected the KT/V number. Clearance, a

term often used by facility staff, was selected by 32 and 29 percent of patients.


Significantly, about one-quarter of all patients sampled said they did not know which

test(s) were used by their dialysis facility to measure adequacy. Several patients from

both samples (11 and 9 percent) said other tests, besides the ones included on the survey,

were used to measure adequacy in their dialysis facility. The most frequently identifkd

additional tests included albumin (12 patients) and calcium (11 patients). A few patients

mentioned cholesterol (4 patients), glucose (4 patients), and hematocrit (3 patients).





                                                6

              Table 2: TESTS IDENTIFIED BY PATIENTS AS THOSE USED BY THEIR
                     DIALYSIS FACILITY TO MEASURE ADEQUATE DIALYSIS
                             Comparison of first and second sample results

                                           FirstSample                   Seeond Sample

  Potassium   test	                           60%                             61%
                                              (23 1)                          (193)

  Phosphorous    test	                         55%                            58%
                                              (212)                           ( 182)

  BUN	                                         53%                            55%
                                              (204)                           (173)

  Urea Reduction      Ratio (URR)	             45%                            35%
                                              (171)                           (111)

  KT/V                                         37%                            36%
                                              (143)                           (113)

  Clearance                                    32%                            29%
                                              (122)                           (90)


                                     I                           I
  Don’t Know                                  23%                             26%
                                              (89)                            (82)

  Other	                                       11%                              9%
                                               (42)                            (29)



Most patien~s in both samples said they knew their own dialysis was adequate or were
aware there was a recommended level of adequate dialysis, however, far fewer reported
their facility used the 7-RR or KT/V number to measure adequacy.

Seventy-three percent of all patients from our first sample reported knowing there was a
recommended level of adequate dialysis.     However, only 36 percent of these patients
correctly identil%xi the URR or KT/V number as the test(s) used in their dialysis facility
to measure adequacy, even when these tests were included on a list of possible choices
(see table 3).

Patients unaware of the recommended level of adequate dialysis were much less likely (13
percent vs. 36 percent) to identify the URR or KT/V number as a test used by their
dialysis facility to measure adequate dialysis.

If all patients were given their URR or KT/V test results by facilities, we would have
expected far more patients to have identii%d one of these tests as a measure of adequate
dialysis. However, the lack of patient familiarity with the URR or KT/V tests suggests
@ all facilities are providing patients with this information as part of their test results.

Based on the results from our facility survey (OEI-06-95-00321), just over 50 percent of
facilities surveyed said they give patients their URR or KT/V numbers all the time, while


                                               7
27 percent give these numbers 75 percent of the time, 16 percent give them between 25-
50 percent of the time, and four percent don’t ever give patients their test results.

However, facilities giving patients URR or KT/V numbers all of the time were more
likely to have distributed the brochure to every patient and to report a higher percent of
patients are interested intheadequacy   of their dialysis.



          Table 3: PATIENTS     KNOWING THERE WAS A RECOMMENDED                        LEVEL
                                     OF ADEQUATE DIALYSIS
                    by those reporting URR or KT/V used at their dialysis facility
                                           First Sample

                    Reported URR or KT/V Used                   Reported URR or KT/V Mt Used
                       by their Dialysis Facility                    by their Dialysis Facility

  Yes                             36%                                           64%
                                  (97)                                          (171)

 No                               13%                                           87%
                                  (13)                                          (84)



While 94 percent of patients in our second sample reported knowing their own dialysis
was adequate, far fewer of these patients (52 percent) identified the URR or KT/V number
as the test used by their dialysis facility to measure adequacy (see table 4).



              Table 4: PATIENTS KNOWING THEIR DIALYSIS IS ADEQUATE
                 by those identi@ng URR or KT/V test used at their dialysis facility
                                        Second Sample

                     Reported URR or KT/V Used                   Reported URR or KT/V M Used
                       by their Dialysis Facility                     by their Dialysis Facility

  Yes                              52%                                            48%
                                  (147)                                          (136)

  No                               24%                                           76%
                                    (4)                                          (17)



Reasons for patients’ lack of familiarity with their dialysis facility’s use of URR or KT/V
number(s) are unclear. However, this could suggest facility staff do Ut provide the URR
or KT/V number on a regular basis to patients, but instead just inform them their dialysis
is “good” or “adequate.”

Awareness of the URR or KT/V number(s) among patients knowing there is a
recommended level of adequate dialysis and those knowing their dialysis is adequate does



                                                   8

appear to have increased from 36 to 52 percent between the first and second sample (see
tables 3 and 4).8

Although patients reported receiving test results about the adequacy of their dialysis j?om
their facility, the majority of patients were unable to identifi the URR or KT/V test as one
used by their dialysis facility to measure adequacy.

Of patients who asked the dialysis staff for test results, 51 and 37 percent of patients from
our-first and second sample were unable to identify the URR or KT/V test as one used by
their facility to measure adequacy (see table 5).

Additionally, 56 percent of patients who were Wd their test results by facility staff from
our first sample and 47 percent from our second sample were also unable to identify the
URR or KT/V test as one used by their dialysis facility to measure adequacy.

As previously discussed, to some extent, this inability of patients to identify the URR or
KT/V tests reflects the fact that facilities are not giving adequacy numbers to patients all
the time.



                   Table 5: PATIENTS ASKING OR BEING TOLD TEST RESULTS
                 by those identi@ing the URR or KT/V as being used at their dialysis facility
                                Comparison of first and second sample results.

                                               FirstSample                          Seeond Sample

                                          Reported URR or KT/V                 Reported URR or KT/V
                                          Used by Dialysis Facility            Used by Dialysis Facility

                                            Yes                  No               Yes               No

  Patients asked dialysis staff             49%                  51%             63%              37%
  for test results                          (70)                 (74)            (91)             (54)

  Patients told test results by             44%                  56%              53%             47%
  dialysis staff                            (60)                 (77)            (120)            (106)



Nevertheless, patient awareness of 77.. and/or KT/V hus increased over time, with
sizeable increases occum”ng in the percent of patients identifying these tests as a measure
of adequate dialysis.

Among patients asking the dialysis staff for their test results, there were sizeable increases
in patients identifying either the URR or KT/V as a test used by their dialysis facility to
measure adequacy, with increases from 49 percent in our fnst sample to 63 percent in our
second sample (see table 5). Additionally, among patients ~          their test results, the
percent reporting their facility uses the URR or KT/V number to measure adequacy
increased from 44 to 53 percent between the two samples. This increase in the number of
patients familiar with URR or KT/V as a test(s) of dialysis adequacy suggests an overall


                                                       9
increase in patient inquiries and staff communication   about patients’ URR or KT/V
numbers.

Patient familiarity   with Target URR or KT/V numbers.

Only one-quarter of all patients, whether they received the brochure or not, could
correctly identl~ either the target URR or KT/V number(s).

When patients from our second sample were asked to select how much the urea in their
blood should go down after their treatment, only 25 percent of all patients were able to
identify either a URR of at least 65 percent or a KT/V of 1.2, even when given a list
including these as possible options. Regarding URR, 21 percent of all patients knew the
correct URR target number, with four percent giving an incorrect number, and 75 percent
saying they did not know.

As expected, even fewer patients (14 percent) knew the correct KT/V target number,
wbile six percent gave an incorrect answer and 80 percent did not know this information.

Patients keeping track of their personal URR or KT/V numbers were somewhat more likely
to know the correct URR or KT/V target number(s) than those not keeping such records.

Fifty-seven percent of patients from our second sample that reported keeping track of their
personal URR or KT/V number(s) knew the correct target number for at least one of these
tests (see table 6). However, a large number of patients (43 percent) personally recorded
this information but still did ~t know the correct target range for either of these numbers.
This suggests that even those patients who are actively involved in their dialysis care need
further instruction on what level their URR or KT/V number should be for adequate
dialysis.


        Table 6: PATIENTS    KEEPING TRACK OF PERSONAL URR OR KT/V NUMBER
                            by	 those knowing URR or KT/V target number
                                             Second Samde

                                   Knew URR or KT/V                   D]d Not KIIOW
                                     Target Number                Correct Target Number

 Yes                                       57%                             43%
                                           (27)                            (20)

 No                                        48%                             52%
                                           (40)                            (43)




                                              10
Even among college educated patients or those with a professional degree, only 43 percent
were able to correctly identtjj the URR or KT/V target number.

Although patients with a college degree were the most likely to know the correct URR or
KT/V target number, still, a majority of this group (57 percent) did q know this
information (see table 7). Additionally, only about one-quarter of patients with some
college, a high school diploma, or less were able to correctly identify the target level for
adequate dialysis.


                  Table 7: PATIENTS     KNOWING URR or KT/V TARGET      NUMBER
                                        by patient’s education level
                                              Second Sample

                                                                             College Degree
                       Less than High        High School                     or Professional
                       School Diploma         Diploma        Some College        Degree

  Knew correct              23%                 22%              28%              43%
  target number             (31)                (24)             (17)             (16)

 Did ~t know
 correct target              77%                78%              72%              57%
 number                     (104)               (85)             (43)             (21)



Many pa~ients who said ~he brochure was easy to understand andlor that it was very
helpjid still could not identify the correct URR or KT/V target number.

Of the patients finding the brochure easy to understand, only 55 percent knew the correct
URR or KT/V target number, while 45 percent did not know (see table 8). This finding
highlights the apparent difficulty patients had in really understanding the brochure’s
content, which focused on patients being able to track whether their URR or KT/V
number(s) were at the appropriate level for adequate dialysis.

However, patients who reported the brochure easy to understand were more likely (55
percent) to know the correct URR or KT/V target number compared to those ~ finding
the brochure easy to understand (31 percent). Similarly, 69 percent of patients ~t finding
the brochure easy to understand could ~t correctly identify the target URR or KT/V
number.


                                                                 .




                                                 11

                         Table 8: PATIENTS RATING OF BROCHURE
                            by those knowing URR or KT/V target number
                                           Second Sample

                                                Knew Target URR or            Did Not Know
                                                   KT/V Number           Correct Target Number

 Patients finding brochure easy to understand


                                                                     I
 Yes                                                      55%                     45%
                                         I                (33)                    (27)

 No                                                       31%                     69%
                                                          (15)                    (33)

 Patients finding brochure very useful


                                                                     I
 Yes                                                      52%                    48%
                                         I                (36)                   (33)

 No                                                       28%                     72%
                                                           (9)                    (23)



Likewise, patients finding the brochure very helpful, more often (52 percent) correctly
identified the URR or KT/V target number than those ~ finding the brochure helpful (28
percent, see table 8). Signtilcantly, an even higher percent (72 percent) of those I@
rating the brochure as very useful could not correctly identify the correct URR or KT/V
target number.




                                                    12

SPECIFIC         EFFECT

Overall, pti”ents receiving the brochure repotied it easy to understand,     very usefil,   and
had a better understanding of adequale dialysis.

Patient rating of brochure

Eighty-four percent of brochure recipients reported the brochure’s content was very or
somewhat easy to understand.

Fifty-eight percent of patients from our second sample found the information in the
brochure easy to understand, while another 26 percent found it somewhat easy to
understand (see table 9). Only four percent thought it was somewhat or very hard to
understand.




II             Table 9: PATIENTS    UNDERSTANDING    OF BROCHURE’S
                                            Second Sample
                                                                     INFORMATION



  Very easy to understand                                            58%
                                                                     (68)

  Somewhat easy to understand
                                                   I                 26%
                                                                     (31)

  Neither easy nor hard to understand
                                                   I                  12%
                                                                      (14)

  Somewhat hard to understand
                                                   I                  3%
                                                                      (4)

II Very   hard to understand                       I                   1%




Over two-thirds of brochure recipients reported the brochure was very helpfil.


Sixty-seven percent of patients receiving the brochure found it very helpful in increasing

their understanding of the URR or KT/V number (see Table 10). The following

comments illustrate their responses:   1) “The pamphlet gave me a chunce to ask questions

about something I had no idea about;” 2) “They twpkdned it (URR or KT/V number) to

me before, so it wa all information I had already heard, but it was useji.d to go over il

again. “





                                                 13

Another 23 percent said the brochure was somewhat helpful, but 10 percent found it Ut
helpful. The following comments are typical of patients finding the brochure less helpful:
1) “(1) needed a practical application of it. Had there been a follow-up or encouragement
to record the KT/V numbers, on the part of the nurses, the pamphiet would huve been very
helpfil; ” 2) “(The pamphlet was) over my head;” 3) “(I) don ‘t understand how (the)
number is obtained;” 4) “Our unit does not do urea reduction. Too much information is
con@sing. “



                 Table 10: PATIENT   RATINGS OF BROCHURE’S    HELPFULNESS
                                          Second Sample

  Very Helpful                                                     67%
                                                                   (77)

  Somewhat Helpful                                                 23%
                                                                   (26)

  Not Helpfid                                                      10%
                                                                   (11)



Patient familiarity   with URR or KT/V tests.

Patients receiving the brochure were more likdy to identijj U.    or KT/V as the test(s)
used to measure adequaq in their dialysis facili~.

Fifty-eight percent of patients receiving the brochure from our first sample and 43 percent
of patients from our second sample identified URR as a test used by their dialysis facility
to measure adequacy, compared to 39 and 31 percent of patients ~t receiving the
brochure (see table 11). Similar patterns were found with patients selecting the KT/V
number as the test used to measure adequacy. Ten percent more patients receiving the
brochure correctly identilled KT/V from a list of possible test(s), compared with those @
receiving it.

Only 13 and 23 percent of patients from our first and second sample who reported
receiving the brochure said they did @ know which tests were used by their facility,
compared to 29 and 28 percent of patients who reported ~t receiving the brochure.




                                                14

                                                                                                  4




              Table 11: TESTS IDENTIFIED BY PATIENTS AS THOSE USED BY THEIR
                      DIALYSIS FACILITY TO MEASURE ADEQUATE DIALYSIS
                               Comparison of first and second sample results
                                           by brochure receipt

                                             First Sample                  Second Sample

                                      No                                No
                                   Brochure               Brochure   Brochure        Brochure

  Potassium   test                    58%                   63%        64%                 54%
                                     (144)                  (75)       (128)               (60)

  Phosphorous    test                 54%                   56%         62%                48%
                                     (134)                  (67)       ( 124)              (53)

  BUN                                55%                    50%        57%                 51%
                                     (135)                  (60)       (114)               (56)

  Urea Reduction Ratio (l-RR)        39%                    58%        31%                 43%
                                     (95)                   (69)       (62)                (48)

  KT/V                               34%                    44%        32%                 43%
                                     (84)                   (53)       (63)                (48)

  Clearance                          32%                     31%       29%                 26%
                                     (79)                   (10.1)     (57)                (29)

  Don’t Know                         29%                     13%       28%                 23%
                                     (72)                    (16)      (56)                (26)

  Other                               9%                     13%       8%                  12%
                                     (23)                    (16)      (15)                (13)



Patient familiarity     with target URR or KT/V numbers.

Al~hough the mujority of patients receiving the brochure did not know the correct URR or
KT/V ~arget number, patien~s who received the brochure were much more likely to know
this information thun those Ut receiving the brochure.

Fifty-seven percent of patients receiving the brochure from the second sample were unable
to correctly identify either the target URR number of at least 65 percent or KT/V number
of 1.2 (see table 12), even when given a list including the target numbers as possible
options from which to choose.




                                                    15

                            Table 12: PATIENTS RECEIVING BROCHURE
                               by those knowing URR or KT/V target number
                                              Second Sample

                                    Knew Target URR                              Did Not know
  Reeeived   Brochure                or KT/V Number                         Correct Target Number

  Yes
                                         43%                                    57%
                                               (47)                                   (62)

  No
                                          19%                                   81%
                                               (34)                                  (147)

  Don’t Remember
                              9%                                     91%
                                               (5)                                    (51)



Specifically, 35 percent of patients receiving a brochure in our second sample knew the
correct URR target number, compared to only 15 percent of those ~t receiving the
brochure (see table 13). Patients receiving the brochure were also less likely (56 percent)
to say they did ~t know the correct URR target number than those @ receiving it (84
percent).

Fewer patients were expected to be familiar with the KT/V target number since KT/V is
used less frequently in dialysis facilities. Thirty-one percent of patients receiving the
brochure selected the correct KT/V target number, compared with only 7 percent of those
not receiving the brochure. Eighty-nine percent of patients ~t receiving the brochure told
us they did not know the correct KT/V target number, contrasted with 57 percent of those
receiving it.



                           Table 13: PATIENTS RECEIVING BROCHURE
                              by those knowing URR or KT/V target number
                                              Second Sample

                                   URR Number                                  KT/V Number

                        Seketed       Seleeted
                        Correct      Incorrect         Didn’t
 Received                                              Know      ==l?=l=
 Brochure               Target #     Target #         Target #    Target #         Target #       Target #
                                                                               I              I

 Yes                      35%            9%             56%         31%        ]     12%      I     57%
                          (38)          (lo)            (60)        (32)       !     (13)     !     (59)

 No
 or Didn’t                15%           1%              84%           7%             4%             89%
 Remember                 (35)          (4)             (200)        (16)            (9)            (215)




                                                      16

Patient traclcimz of ~ersonal URR or KT/V numbers.

Although only 35 percent of patients, overall, tracked their persorud W/R or KT/V
number, patients who received the brochure were more likely to keep such records than
those wt receiving it.

Although not statistically significant, of patients from our second sample who kept track
of their URR or KT/V number, 56 percent received the brochure compared to only 44%
of patients who did m (see table 14). However, we cannot tell whether patients started
tracking their URR or KT/V numbers as a result of receiving the brochure.



        Table 14: PATIENTS   KEEPING     TRACK OF PERSONAL          URR OR KT/V NUMBER
                                         by brochure receipt
                                           Second %umde

                                     Overall             No Brochure            Brochure
                                                     ,                   1
  Yes                                 35%                    44%                  56%
                                      (48)                   (21)                 (27)

  No                                  65%                    46%                  54%
                                      (91)                   (42)                 (49)



Patient recei~t of information   about immovin~ dialysis.

Patients receiving the brochure were also more likzly to have been told by the dialysis
staf whut they could do to improve the adequacy of their dialysis.

Ninety-one and 95 percent of patients from our first and second sample receiving the
brochure were given advice on improving their dialysis, contrasted with only 81 and 75
percent of patients Ut receiving the brochure (see table 15).




                                               17

        Table 15: DIALYSIS   STAFF TOLD PATIENTS WHAT THEY COULD DO TO MAKE
                                    DIALYSIS WORK BETTER

                              Comparison of first and second sample results

                                          by brochure receipt


                                       First Sample                           Second Sample
                                                                 ,
                                No                                      No
                             Brochure                 Brochure       Brochure             Brochure

  Yes                           81%                     91%            75%                    95%
                               (198)                    (106)          (184)                  (111)

  No	                          19%                       9%            25%                     5%
                               (47)                     (11)           (63)                    (6)



PATIENT/STAFF         RELATIONSHIP

E%epatient[staff relationship emerged as an impotiant element in pati”ent understanding
of adequate dialysis and the successful use of the brochure.

Staff discussions of adecmate dialvsis.

Most patients learn whether their own dialysis is adequate by the dialysis stafl telling them
it is adequate or by being told their test results.

Regardless of whether patients received the brochure or not, 73 percent of all patients
from our frost sample reported knowing there was a recommended level of adequate
dialysis. Eighty-one percent of patients from the second sample said they knew their
dialysis was adequate.

Sixty-three percent of patients from our fwst sample and 72 percent of patients from our
second sample were Md their dialysis was adequate by facility staff (see table 16). Fifty-
three and 76 percent of patients from our first and second sample reported learning about
the adequacy of their dialysis from test results given to them by the facility staff.

Over the four month period between our first and second sample, noteworthy increases,
from 63 to 72 percent, occurred in patients reporting the dialysis staff ~   them their
dialysis was adequate. Similarly, the number of patients being LOJ their test results
increased from 53 to 76 percent from our fust and second sample. Patients from the later
sample were more likely to ask if their dialysis was adequate, suggesting patient and
facility interest in improving understanding of dialysis adequacy and in releasing patient
test results had increased over time.




                                                       18

II             Table 16: HOW PATIENTS KNOW IF THEIR DIALYSIS IS ADEQUATE
                            Com~arison of first and second samDle results.

                                                                FirstSample       Second Sample
                                                            I                 I
  Dialysis staff tell patients dialysis is adequate                63%                  72%
                                                                   (219)               (218)

  Patients ask staff for test results                              55%                50%
                                                                   (189)              (152)

  Dialysis staff tell patients test results                        53%                 76%
                                                                   (181)              (232)

  Patients ask staff if dialysis is adequate                       48%                55%
                                                                   (165)              (166)



Two-way communication exists between over half of patients and facili~ stafl regarding
patients’ test results and the adequacy of their dialysis.

Patients learned about the adequacy of their dialysis or their individual test results through
a variety of ways (see table 17). The majority (51 percent) of patients from our first
sample and 57 percent from our second sample relied on both asking for and being told
this information by facility staff, suggesting two-way communication exists between
patients and facility staff.

However, 25 and 31 percent of patients from our first and second sample counted on the
dialysis staff telling them this information and did ~t ask about it. Thirteen percent of
patients from our fwst sample and 10 percent of patients from our second sample obtained
this information by asking the dialysis staff, but were @ provided this information unless
they asked. A few patients from both our first sample (1O percent) and our stiond sample
(2 percent) said they were neither asked nor were told about the adequacy of their dialysis
or their test results by dialysis staff.




                                                      19

                    Table 17: METHOD USED BY PATIENTS TO DETERMINE
                 IF DIALYSIS IS ADEQUATE OR LEARN THEIR TEST RESULTS.
                             Comparison of first and second sample results.

  METHOD USED IN DETERMIIWNG
  ADEQUACY OR NUMBER                                         First Sample       Second Sample

  Asked facility staff about information,    but                 13%                 10%
  were ~t told.                                                  (47)                (32)

  Told information   by facility staff, without                  25%                31%
  asking.                                                        (85)               (93)

  Both asked for and told this information         I             51%        I       57%
                                                                (178)               (172)
                                                   I                        I
  None of the above occurred                       I             11%        I        2%
                                                                 (37)                (6)
                                                                            I



Dialogue between patients and facility stafl regarding the adequacy of patients’ dialysis
andlor their test results appears to have increased somewhut over time.

Patients were more likely to ask @ be told information on whether their dialysis was
adequate from facility staff in the later sample. An increase in patient inquiries and staff
communication about adequacy information and/or patients’ test results occurred between
our first and second sample, increasing from 51 percent to 57 percent. Additionally, the
percent of patients Wt asking or being told information about the adequacy of their
dialysis and/or their test results decreased from 11 to two percent between the two
samples.


Over 80 percent of patients reported receiw”ngadvice jlom facili~ stafl about what they
couki do to make their dialysis work better.

Eighty-four percent of patients in our first sample and 81 percent of patients from our
second sample reported they were told what they could do to make their dialysis better.
Seventy-seven percent of patients from our second sample wem told this information by
the dietitian, 74 percent by the nurse, 62 percent by the doctor, 18 percent by another
member of the dialysis staffi and 5 percent of patients by someone else; such as the social
worker.




                                                       20

Exdanations   of the brochure by facilitv staff.

Nevertheless, among patients receiving the brochure, less thunhalfofpatients   who
received the brochure reported receiving an explanation of the brochure’s content or
having it read to them by dialysis stafi

Of the patients receiving the brochure, 49 percent of the first sample reported receiving an
explanation of the brochure’s content from the dialysis staff. Forty-two percent of the
second sample who received the brochure reported the brochure was either read or
explained to them by someone; such as the dialysis staff, a family member or friend.
Speciilcally, 23 percent of patients received an explanation of the brochure, 11 percent
reported it was read to them, and eight percent said it was ~h explained and read to
them.

Fifty-two percent of the patients in our second sample reported they read the brochure
themselves, but received m explanation from the facility staff or anyone else. Another
six percent admitted throwing the brochure away without reading it.

Men explanations of the brochure’s content did occur, they most commonly came j-em
the dialysis facility nurse or dietitian.

When the dialysis facility staff provided explanations of the brochure or at least read it to

patients, this was most commonly done by the facility nurse (47 percent). The dietitian

provided an explanation of the brochure for 24 percent of patients and the doctor for six

percent of patients. Other members of the dialysis staff, such as the social worker,

provided an explanation for 14 percent of patients. Another 13 percent of patients

received an explanation from a friend or someone else.


The following describes the experiences       of those patients receiving an explanation   from

the dialysis facility staff


�      54 percent    reported    the staff answered questions.

�      52 percent    reported    the staff spent enough time with them.

�      49 percent    reported    they understood the staff’s explanation.

�      43 percent    reported    the staff just explained the brochure.

�        6 percent    reported    they did ~t understand the staff’s explanation.





                                                  21

                    RECOMMENDATIONS

Overall, we found the HCFA strategy to educate patients and enlist them in monitoring
the adequacy of their dialysis shows promise. The educational brochure has the potential
to serve as an effective part of a broader strategy of improving patients’ understanding and
pursuit of adequate dialysis. However, the brochure’s dissemination and its use by
facilities need to be refined and improved before this can fully occur.

Clearly, the brochure achieved some impact on patients’ understanding of adequate
dialysis, and more specifically, about URR and KT/V and the target numbers associated
with these tests. Additionally, the brochure appears also to have influenced dialysis
facility staffs by increasing their discussion with patients of URR and/or KT/V, and
dialysis adequacy, in general. An increase in such discussions should result in more
patients knowing about adequate dialysis and how to measure and monitor it, which, in
turn, should lead to healthier patient outcomes.


Based on our findings, we recommend that HCFA:

Assure jizture pah”ent brochures are received by &l Medicare dialysis p~”ents.

Severe dissemination problems occurred with this patient brochure, either because
facilities did ~t distribute the brochure to Al patients, and/or patients received no staff
explanation when receiving the brochure, and therefore did Dt recall receiving the
brochure.

Build on the patient/staff reldonship in order to improve p~”ent understanding        of URR
and KT/V and the importance of achieving adequate dtiysis.

It was also clear that the patient/staff relationship was critical in increasing patient
understanding of the brochure’s content and of dialysis adequacy. Facility staff should be
encouraged to engage in two-way communication with patients about the adequacy of their
dialysis, specifically, informing them about URR and KT/V and the appropriate target
number. Additionally, facility staff should actively participate in the dissemination of
future educatiomd brochures by providing explanations about the brochure’s content, along
with stressing the importance of the material.




                                              22

                     AGENCY                 COMMENTS

The Health Care Financing Administration (HCFA) concurred with all the report’s

recommendations.  We appreciate their responsiveness to our proposals. However, we

have a new concern that has arisen since we issued our draft report.


We originally recommended that HCFA encourage facilities to calculate dialysis adequacy

monthly and share these numbers with patients on a regular basis. HCFA informed us

that they had no requirement for facilities to measure the adequacy of dialysis at

prescribed intervals but that their revised EN2D Conditions for Coverage will require

facilities to calculate the adequacy of dialysis quarterly. This is in marked constrast to the

upcoming National Kidney Foundation’s Dialysis Outcome Quality Initiative guidelines

which recommend a standard practice guideline of a monthly URR or KT/V calculation,

not quarterly calculations.    We are concerned that facilities will interpret HCFA’s

Conditions for Coverage as the acceptable standard and conduct adequacy testing only

quarterly.


In our view, this could pose a severe health risk for ESRD patients whose dialysis could

go three months before needed corrections could be made to their treatment. We are

convinced that facilities should be required to calculate adequacy numbers monthly and we

urge HCFA to reconsider or amend the Conditions for Coverage accordingly.


Discussion of Technical Comments


HCFA suggested we assess whether some of the comprehension issues might be attributed

to a lack of cultural sensitivity in the brochure. We did analyses looking at both a

patient’s race and primary language. However, we found no statistically significant

differences on key questions related to comprehension based on these two variables.


Additionally, HCFA called attention to the Spanish version of the brochure. We were

happy to mention that 50,000 brochures would be printed for later distribution in the

background section of both reports. Of course this study examined only the English

version; at the time of our facility survey the Spanish version had not been distributed.


See Appendix C for a full text of HCFA’S comments.





                                              23

                                EN DNOTES


1.   Title 42 CFR 405.2102, Conditions for Coverage of Suppliers of FWH3 Services,
     October 1993; pg. 127.

2.   Hemodialysis therapy cleans and filters a patient’s blood with a dialyzer. This
     procedure can be done at home or in-center by nurses or trained technicians.
     Hemodialysis is usually performed about three times a week, with treatments
     lasting 2 to 4 hours each. Through this treatment and a proper diet, ESRD patients
     can greatly reduce the amount of wastes building up in their blood.

3.   Peritoneal Dialysis replaces the work of the kidneys by removing extra water,
     wastes, and chemicals from the body. A cleansing solution, called dialysate, helps
     facilitate a patient’s peritoneal membrane of the abdomen to filter their blood,
     requiring a catheter to be permanently placed into their abdomen. Wastes are
     filtered from a patient’s body once the dialysate is drained. There are three types
     of peritoneal dialysis, with Continuous Ambulatory Peritoneal Dialysis (CAPD)
     being the most common.

4.   The Urea Reduction Ratio (URR) informs patients how well hemodialysis is
     working by telling them the percentage of urea (waste products) removed from
     their body during their treatment.   Baseline estimates were then used to identify
     opportunities for improvement in IZSRD care across the United States.


5.   Some dialysis facilities calculate a KT/V ratio instead of URR. This urea kinetic
     model or index is defined as the dialyzer urea clearance (K) multiplied by the
     patients’ treatment time (T) divided by the volume of urea distribution (V).

6.   Consensus Development Conference Panel. Morbidity and mortality of renal
     dialysis: An N_Ill consensus conference statement. Ann Intern Meal, 1994; 121:
     62-70.

7.   Renal Physicians Association.     Clinical practice guideline on adequacy of
     hemodialysis:   Clinical practice guideline, number 1. December, 1993

8.   Although our fwst sample surveyed the        extent patients knew there was a
     recommended level of dialysis and our        second sample inquired whether patients
     knew their dialysis was adequate, both       samples asked patients to identify which
     test(s) are used by their dialysis unit to   measure if their dialysis is adequate.




                                             24

                                APPENDIX                     A

              RFSPONSE       RATES AND NON-RESPONDENT                 ANALYSIS


Our first sample resulted in an overall response rate of 48 percent, with 386 of 800

patients responding.   Of the non-respondents, 25 surveys were mailed back to us but were

unusable for a variety of reasons. Fifteen patients either moved or had incorrect

addresses, seven patients were deceased, and three patients were not physically competent

to complete the survey.


There was ~ response bias among patients with just ESRD, as compared with aged or

disabled ESRD patients. There was also no bias by gender in our first sample. However,

response bias existed by race for the first sample. Black respondents were over two times

more likely ~t to respond to our survey compared to white respondents, with only 36

percent of blacks patients responding as compared to 59 percent of white patients.          Only

a few statistically significant differences existed by race among our respondents in the first

sample. White respondents were 1.4 times more likely to list the URR test and 1.3 times

more likely to list the KT/V test as ones used by their dialysis facility to measure

adequacy, compared to black respondents.        Nevertheless, no statistically significant racial

differences existed by education level or for other key questions, such as those receiving

the brochure or an explanation of it.


Our second samDle resulted in an overall response rate of 50 percent, with 395 of 793

patients responding.   Of the non-respondents, 46 surveys were mailed back to us but were

unusable for the following reasons: 22 patients had invalid addresses; ten patients were

deceased; nine patients refusedor just didn’t complete the survey; three patients were

incompetent; and two patients were off dialysis.


No response bias existed by age or among patients with just ESRD vs. aged or disabled

ESRD patients. However, response bias also existed by race for our second sample, with

only 42 percent of Blacks responding to our survey compared to 56 percent of Whites.

Although no response bias existed by race for key survey questions, such as;

understanding of the brochure’s concept, differences did exist in the educational levels of

respondents.  Sixty-seven percent of White respondents had a high school diploma or less,

compared to 74 percent of Blacks and 87 percent of non-Black, non-White respondents.

White respondents were two times more likely to have a college or professional degree

compared to Black respondents.


The implications of the response bias by race are unclear. However, our greatest concern

is the potential bias created by non-respondents not receiving the brochure. We

anticipated those ~ receiving the brochure would be less likely to respond to our survey.

Although we have no information about the educational level of our non-respondents, it is

also likely our respondents had higher education levels and/or better reading abilities than

our non-respondents.     If bias by education does exist, our estimates will be more



                                              A-1
conservative estimates of the true population, resulting in higher percentages   of patients
understanding the brochure’s content compared to the actual population.

Non-res~onse   survey

Addressing concerns about potential bias because of the low response rates from our two
samples, we conducted a separate phone survey of non-respondents from our second
sample. Of the 398 non- respondents from our survey, we randomly selected 60 patients
from the remaining 350 patients ~t completing our survey or having it mailed back to us
as undeliverable.  Patients selected for our non-response analysis were surveyed briefly by
telephone in May 1996. Since we originally had no phone numbers for our sampled
patients, phone numbers were obtained through directory assistance. Of the 60 patients
sampled for this analysis, current phone numbers were @ available for 24 patients. Of
the 36 patients with valid phone numbers, we successfully surveyed 28 patients via the
telephone. Patients contacted were asked if they had received our original mail survey,
knew about adequate dialysis, got the “Know Your Number” brochure, and why they had
not completed our mail survey.

Findings @om non-response anulysis:

Sixty-four percent (18) of patients we telephoned had received our mail survey, while 29
percent (eight patients) reported they had ~ received it and another seven percent (two
patients) did not remember receiving it. It is unclear why these patients did not recall
getting the survey since their mailed survey was ~t returned to us marked undeliverable
by the mail service. However, it is possible these patients disregarded our survey without
even opening the envelope to determine its’ contents.

Ninety-six percent (27) of patients stated that they knew about adequate dialysis, while
just one patient admitted they did ~t.

Only 15 percent (four) of patients reported they had received the brochure; 63 percent (17
patients) did ~t receive it, and 22 percent (six patients) did ~t remember receiving it.

Patients’ reasons for @ returning our survey included the following: 1) six patients had
been very ill and had been in the hospital, thus they were either unsure they had even
received our survey in the mail or were unable to complete it due to health problems; 2)
six patients were blind and said they were unable to complete our survey by themselves;
3) ten patients admitted they just hadn’t gotten around to completing the mail survey; and
4) four patients didn’t complete our survey because they had ~t received the brochure
and thought they didn’t need to complete the survey.




                                            A-2

Conclusions:

The results from our non-response analysis of patients receiving the brochure, compared
to our respondents, suggest our sample over-estimates the number of patients really
receiving the brochure. Almost one-third of respondents from our second sample stated
that they received the brochure, compared to only 15 percent of our non-respondents.




                                          A-3

                                     APPENDIX                        B

ESTIMATES         AND CONFIDENCE                INTERVALS

The chart below summarizes the estimated proportions and the 95 confidence intervals for
key statistics presented in this report based on this simple random sample.


                                           Table 1: FIRST SAMPLE

                                                                                    95’% CONFIDENCE
 QUESTION                                      POLNT ESTIMATE                           INTERVAL

 Proportion   of patients receiving the brochure.

                                      I             33%                   I           28.1% - 37.9%

 Proportion   of patients who knew about the URR test.

                                                    45%                               40.1% - 49.9%

 Proportion   of patients who knew about the KT/V test.

                                      I             37%                   I           32.1% -41.9%

 Proportion   of patients who knew there was a recommended    level of dialysis.


 By Patients who:

 Knew URR or KT/V used                              36%                               30.3% - 41.7%


 Proportion   of Patients who knew about URR or KT/V test.


 By Patients who:
 .   Asked dialysis staff about
    about adequacy.                                 49%                               40.8% - 57.2%
 �   Told about adequacy by
    dialysis staff.                                 44%                               35.6% - 52.4%

 Proportion  of patients receiving the brochure.
                                     I
 BY patients who:
 �   Knew URR used                                  58%                               49.2% - 66.8%
 �   Knew KTIV used                                 44%                               39.5% - 48.5%
 �   Told what they could do to
    improve their dialysis.                         91%                               85.9% - 96.1%




                                                    B-1

                                       Table 2: SECOND       SAMPLE

                                                                             95% CONFIDENCE
QUESTION                                     POINT ESTIMATE                      INTERVAL

Proportion of patients receiving the brochure.

                                                       32%                     27.3% - 36.7%

Proportion   of patients who knew about the URR test.

                                                      35%                      29.7% - 40.3%

Proportion   of patients who knew about the KT/V test.

                                                      36%                      30.7% -41.3%

Proportion   of patients who knew their dialysis was adequate.


BY patients who:

� Knew URR or KT/V used                               52%                      46.1% - 57.9%

� Didn’ t know tests used                             24%                      19.1% - 28.9%


Proportion   of Patients who knew either their target URR or KT/V number.


Overall                                               25%                      20.5% - 29.5%
By patients who:
. Kept track of their number                          57%                      47.6% - 66.4%
. Found brochure usefid                               52%                      40.2% - 63.8%
�  Found brochure easy to
  understand                                          55%                      42.5% - 67.5%

Proportion   of patients who found the brochure.

�   Very easy to understand                           58%                      49.2% - 66.8%
�   Very helpful                                      67%                      58.4% - 75.6%

Proportion   of patients who received the brochure.

BY patients who:
. Were told how they could
  make their dialysis better                          95%                      91.1% - 98.9%
. Knew their URR or KT/V
  target number                                       35%                      26.0% - 44.0%
�  Kept track of their number                         56%                      41.9% - 70.1%

Proportion   of patients who reported that the URR or KT/V test was used.

By patients who:
�  Asked or were told their test
  results                                             63%                      55.2% - 70.8%




                                                      B-2

TESTS FOR SIGNIFICANCE

Differences between the first and second sample of patients were tested for significance
for several questions. The table below shows the difference between the two groups and
the resulting value when a t-test was performed.



       Table 3: DIFFERENCES            BETWEEN       FIRST & SECOND        SAMPLE   FOR KEY OUESTIONS.

                                                         FIRST SAMPLE           SECOND   SAMPLE
    QUESTION                                                                                      T VALUE
                                                           Reported     URR or KT/V Used by
                                                                       Dialysis Facility
                                                                               1
    Patients asked dialysis staff for test results
                                                                 49%                 63%           -2.42-

    Patients told test results by dialysis staff
                                                     I           44%        I        53%          -1.72”

                                                                 Did Not Receive Brochure
    Dialysis staff told patients what they could

    do to make dialysis work better                              81%                 75%           1.68”


                                                          How Patients Know if Their Dialysis
                                                                      is Adequate

    Dialysis staff tell patients test results                    53%                 76%           -6.18-

*
     Indicates significance    at the 90% confidence level.
*    Indicates significance    at the 95% confidence level.
-    Indicates significance    at the 99% confidence level.




                                                          B-3

 APPENDIX            C



TEXT OF AGENCY   COMMENTS




          c-1
                                                                       Health   Care finaw!n~     Administrat~-n
DEPARTMENT    OF HEALTH        & HUMAN   SERVICES
                                                                   —
                                                                       The Admlnlstrator
                                                                       Washington.    0 C,      20701




  DATE:        0EC22B33
  TO:          June Gibbs Brown


  FROM
               Administrator

  SUBJECT:	    Of%w  of kuq)ccToftied     (OIG) thaft Rqmrts: “klOW your ?+mdw”
               Brnchum - Perspectives of Did@s Patients (OE?-&5-gS-00320)       snd
               “Know Your Numbcf      Brochure - Ex@cn~     of Diniysis Facilities
               (OH-06-9$00321]


  We reviewed the rnbo-ve-rtferenccdreports w&% examine&c cf&ctiveness of the #caIth
  Care Fmcing    Adminimra!ion’s End Stage Renal Disease pram
                                                                 -
                                                               .
  Our detilui commen& on the _        recommendations am attached fur your
  consideration. Thank you for the oppcamity to review and comment cm theserqmts.

  Artachmmt
             Comments     of the Health Care Financing Admkistration (HCFA) on

                        Office of Insuector General (OIG) Draft Re~orts:

                        “how Your Number” Brochure - Perspectives of

         Dialwis     Patients. (OEI-06-95-00320) ~d ‘Know Your Number” Broch~e         ­

                       ~xueriences of Dialysis Facilities. (OE1-06-95-0032 1)





“Know Yow Number” Brochure - Perspectives of Dialvsis Patients. (OEI-06-95-00320)

.OIG Recommendation 1

HCFA should ensure future patient brochures are received by all Medicare dialysis
patients.

HCFA Res~onse

We concur. Direct mailing of brochures to patients was considered for our initial
brochure distribution. However, the American Association of Kidney Patients
recommended that the brochure be distributed through facilities where questions can be
asked and explanations provided. If possible, future distributions   will be   a combination
of direct mailing to patients and bulk mailing to facilities.

OIG Recommendation 2

HCFA should build on the patientkiff relationship in order to improve patient
understanding of urea reduction ratios and the urea kinetic model and the importance of
achieving adequate dialysis.

HCFA     Resr)ons~


We concur. The patientistaff relationship is critical to the improvement of a patient’s
understanding of end-stage renaJ disease @SR.W. Most patients rely on their care givers
for necessary information and encouragement in order to be active participants in the
health care decisions that involve them. Facility guidelines that provide the staff with
additional background materials and suggestions on successful ways to use the brochm e
in patient education would support paticntist~ff dialogue as well as patient empowerment
However, it will not guarantee that the brochure will be distributed or that dialogue will
occur.
Page 2

<<
 Know Your Number” Brochure - Ex~eriences of Dialvsis Facilities, (OEI-06-95-0032       1)
                                      ..

OIG Recommendation 1 (’Dissemination)

HCFA should ensure that all facilities receive an ample supply of brochures and
encourage them to distribute a brochure to every patient. HCFA might also consider
providing guidelines to facilities on effective dissemination approaches.

HCFA Response

We concur, The initial distribution was intended to provide all ESRD dialysis facilities
with enough brochures for 100-percent patient distribution plus extra brochures for
anticipated new patients. The mailing labels and distribution amounts were pr&ided long
before the brochures were actually mailed. Consequently, some new facilities were not
on the list, To the extent possible, fiture mailings will be done from the most ~ument
roster of facilities. Additional brochures will be sent to the Networka with a request that
they send an ample supply to a.11facilities added to their Network rolls after the mailing
list was created,

HCFA worked closely with the renal community (Renal Physicians’ Association%
Amezican Association of Kidney Patients, National Kidney Foundatio& American
Nephrology Nurses Associatio~ National Renal Administrators’ Association, ESl?~
Network Forum and National Association of Nephrology Technicians) in the
development and distribution of the brochure, M well as alerting the renal community m
the brochure distribution. The national associations were most helpful in promoting the
brochure at theti national meetings and in their newsletters, as well as distributing
brochures to their membership. The initial bu~ mailing to facilities was accompanied bv
a letter of introduction that described the brochure development and encouraged facilities
to use the brochures for patient education. We realize tlmt continued and addition~l
facility support arc needed and that facilities which need the most support with the
utilization of the brochure do not belong to or attend the various national meetings
provided by the renal community. We wili consider developing facility guidelines
describing brochure distribution to patients and staff for patient education. The
guidelines, if developed, will be included in future brochure bulk mailings to dialysis
facilities.
Page 3

OIG Recommendation 2 (!Brochure Content and Format)

HCFA should simpIi& the language and concepts as much as possible in any subseque~lt
or.revised patient brochures. Consideration might be given to developing alternate
versions of the brochure for d~erent reading levels and to add greater use of color mud
graphics to gain interest and promote patient understanding

~CFA Resvonse

We concur. We appreciate the concern expressed regarding the hmguage and concepts

presented in the brochure The National Renal Physicians’ Association has a professional

level brochure. There is also a high school level brochure on the topic. It is important for

stafVpatient dialogue to occur if a patient has difficulty understanding this brochure and

needs the concepts explained tier.       Consideration can also be given to developing

alternate versions of the brochure for different reading levels if needed and resources

permit, Development of nymerous versions of the brochure does not guarantee that all

patients wdi get a copy, that the facility will educate their patients, or that all patients will

be interested in learning about ESRD. Carcfu.1distribution plans would need to be

developed to enable a variety of versions of the brochure to be cffectivdy distributed so

that the brochure supply and the need would coincide.


In considering reaching renal patients with information about adequacy of dialysis. the

need for a Spanish version of the brochure became apparent, We have, therefore, had the

brochure translated into Spanish and distributed to facilities with Spanish-speaking

patients. Since all facilities were supposed to receive copies of the English version of the

brochure with the introduction letter, we included information about the availability of

the Spanish translation in the letter. As a result we have had a number of requests for the

Spanish version from facilities who were not on the original Spanish brochure

distribution list.


We originally designed the brochure to have larger print and brighter, more varied colors.

However, the Government Printing Office only allows a two-color process for printing

brochures, and budgetary considerations reduced the size of the brochure. Future

printings of the brochure will be mom sensitive to the visuaI1y-impaired and more

visually stimulating if at all possible.

Page 4

(NG Recomm ndation       3 (Conlinuing Pab‘ent Education)

HCFA should encourage continuing efforts by facilities to educate patients and rein.force
the importance of patient understanding and monitoring of the adequacy of their dialysis.
A training video to introduce and/or retiorcc the brochure concepts might also prove
effective, based on the suggestions and experiences of some facilities.

I+CFAR e SQQW2

We concur. If fimding permits, a training video to educate patients and reinforce the
brochure concepts would probably be very helpfid and well received. Having the
brochure information on video would allow the visually-impaired to either better seethe
concepts or at least hear the concepts. Supporting patienthff dialogue would still be
needed,

In additiom since faciIity staff, in con~ction  with the patient are required to
periodically review and update the patient’s care pla% perhaps staff can be encouraged to
take this opportunity to explain the information to patients and answer questions or
address any concerns about the information in the brochure,

     Recommendation 4 (We QfAdeauacv Mea sures)

HCFA should encourage facilities to calculate dialysis adequacy measures on a monthly
basis and share these numbers with patients on a regular basis in order for the brochure to
achieve its intended impact on patients and facilities.

kKFA R c SPQELe

We. concur, At this time there is no requirement for facilities to measure the adequacy of
dialysis at prescribed intervals. Although the revised ESR.D Conditions for Coverage,
scheduled for release in early 1997, will require dialysis facilities to calculate the
adequacy of dialysis quarterly, we encourage more fiequcnt calculations as part of the
facilities coxltiuuous quality improvement program.

The Facilities of Achievement Initiative will demonstrate, in volunteer ESRD dialysis
facilities with existing computer capacity, the possibility of collecting medical indicators
on 100 percent patient sample, then collating and analyzing the data and returning it to
the ptulicipating facility for use in developing quality improvement interventions. The
clinical indicators of the care received w-illbe submitted to HCFA on a quarterIy basis.
Page 5

Technical Comments

The report should assess whether some of comprehension issues of the beneficiaries
might be attributed to a lack of cultural sensitivity in the presentation. Not only is there
the relatively large number of Hispanics in the ESRD prograrq but also American Im%ns
and African-Americans are represented in the population disproportionately,

We also note that the report failed to mention that there was a Spanish edition of this
publication, This is particularly important considering the Iarge Hispanic community
affected by ESRD.
